No. 20-1652

SUPREME COURT OF TH

E UNITED STATES

Meghan Belaski et al.,
Petitioner(s)
vs.
Securities and Exchange Comm

ission

Respondent

On Petition for a Writ of Certio

rari to the

United States Court of Appea

ls

for the DC Circuit

PETITIONER'S SUPPLEME

NTAL BRIEF

Meghan Christine Belaski
Pro-se Representation
P.O. Box 105
Huletts Landing, NY 12841

RECEIVED
JUN 3 0 2021
OFFICE QE THE CLERK
SUPREME COURT, U.S.

TABLE OF CONTENTS
Table of Contents
Table of Authorities

ii

Petitioner's Supplemental Brief

1

Introduction

2.4

Reasons to Grant the Writ

5.9

Conclusion

9

TABLE OF AUTHORITIES
Cases
Ludlum v. Department of Justice, 278 F. 3d 1280 (Fed. Cir. 2002)

2

Ebron v. Department of Homeland Security, 475 Fed. Appx. 752
(April 10, 2012)

2

Gum v. Dudley, 202 W. Va. 477, 485 (W. Va 1998)

3

U.S. v. Dickinson 331 U.S. 745 (1947)

7

Statutes
28 U.S. Code § 4101

4,6

Constitutional Provisions
United States Constitution, Amendment I

7-8

United States Constitution, Amendment V

8

Rules and Regulations
Supreme Court Rule 15.8

1

ii

PETITIONER'S SUPPLEMENTAL BRIEF
Petitioner's Meghan Belaski et al., respectfully submit this supplemental brief
pursuant to this Court's Rule 15.8 which allows for a supplemental brief to be filed
while a writ of certiorari is pending. Petitioner Belaski believes it appropriate to file
this supplemental brief based on the June 21, 2021, filing by the Acting Solicitor
General for the United States stating that "the government hereby waives its right
to file a response to the petition in this case, unless requested to do so by this
Court".
This supplemental brief is in part a response to the United States of America
failing to uphold its commitment to justice by waving its right to file a response to
the petition for writ of certiorari in this case, because waving the right to file a
response allows the Respondent and the United States of America to subvert
fundamental fairness of constitutional due process, suggests a lack of candor on
behalf of the United States of America, impedes Meghan Belaski et al., in her
capacity to petition her government for a full and fair redress of her grievances,
restricts and removes the only legal and legitimate way to more fully inform this
court, borders on defamation of Meghan Belaski's character, and the public's right
to know the truth about the facts of this case. The remaining portion of this
supplemental brief is to reiterate to this Court that due process has not been upheld
in this case or this untenable situation prior to the petition for a writ of certiorari
being filed with this Court.

INTRODUCTION
The filing by the Acting Solicitor General for the United States Department of
Justice in this Case on June 21, 2021, waving the right to file a response to the
petition for a writ of certiorari is nothing short of a deceit on this Court, Petitioner
Belaski et al., and the American people, and exhibits a perceived lack of candor by
the United States of America to this Court, to Petitioner Belaski et al., and to the
American people.
Ludlum v. Department of Justice, 278 F. 3d 1280 (Fed. Cir. 2002) and Ebron
v. Department of Homeland Security, 475 Fed. Appx. 752 (April 10, 2012), are both
cases in which federal employees were charged with a "lack of candor". A lack of
candor can be thought of as a dishonesty by omission. According to
msoattorneys.com or Melville Johnson, P.C., a lack of candor in these cases involved
an "element of deception" and in order "to discipline a federal employee for a lack of
candor the agency must prove two things: that the employee failed to be fully
forthright, and that the employee did so knowingly".
Bonnie Turley at law.georgetown.edu writes about the "Law of Deception".
Her article titled: A Double Standard in the Law of Deception: When Lies to the
Government Are Penalized and Lies by the Government Are Protected, says
everything to Meghan Belaski about what has happened with the United States
waiving their right to respond to the petition for a writ of certiorari. It's nothing
short of a deceit, the United States is lacking candor, and it should not be allowed to
continue in this Court.
2

It is described by USLegal.com or definitions.uslegal.com that Gum u.
Dudley, 202 W. Va. 477, 485 (W. Va 1998), is a case where "the duty of candor
towards the tribunal is a widely recognized one within the legal profession".
USLegal.com describes duty of candor as the "duty of a public authority to disclose
material facts. The general duty of candor requires attorneys to be honest and
forthright with courts. Attorneys should also refrain from deceiving or misleading
courts...through silence".
Considering the extraordinary constitutional questions that have been
raised by Meghan Belaski in the petition for a writ of certiorari to this Court, and
the allegations and implications that the Federal Bureau of Investigation (FBI) et
al., and the Respondent for the United States have been involved with Meghan
Belaski in a manner where a servitude and a "taking" had and has occurred for
many years due to a glorious long-term agreement, for the United States to simply
state in one-sentence it has nothing to say and waives its right to file a response in
this most extraordinary case is nothing short of the United States of America and
the Department of Justice using deceitful practices to withhold information to less
fully inform this Court which is the opposite of what a writ of certiorari is intended
to do.
The Acting Solicitor General for the United States waving the right to file a
response, suggests that the typical silence, where the United States waives its right
to file a response to a petition for a writ of certiorari in this Court generally means
the United States believes the case is not worth responding to, has failed to realize
3

the brevity of the constitutional questions of national importance

raised by Meghan

Belaski in the original petition for a writ of certiorari before this
Court

, but also the

impact a non-response, the United States of America waiving its

right to file a

response, has on Meghan Belaski's good character, as waving the

right to respond to

the petition, to stay silent, somehow implies Meghan Belaski has

made false

statements to this Court, and is essentially a liar.
How can Petitioner Belaski claim she sent approximately 600 email

s to the

FBI et al., through the U.S. Court of Appeals for the DC Circuit's

pro-se email

address from October 2020-April 2021, that had nothing to do with
DC Circuit Court, and somehow the United States of America has
about that? The United States could have easily filed a brief in

her case in the

nothing to say

opposition and

settled any questions or concerns about any of the public-facing

statements

Petitioner Belaski has made in her lawsuits as it concerns the Unite

d States of

America and the Respondent but failed to do so by waiving its
right to

be heard in

this Court.
According to Cornell Law School, at www.law.cornell.edu, 28 U.S. Code

§ 4101

(1) states that "the term defamation means any action or other proce

eding for

defamation, libel, slander, or similar claim alleging that forms of

speech are false,

have caused damage to reputation or emotional distress, have presen

ted any person

in a false light, or have resulted in criticism, dishonor or condemnati

on of any

person".

4

REASONS TO GRANT THE WRIT
The failure of the United States and the Acting Solicitor

General for the

Department of Justice to respond to the constitutional quest
ions

raised in the

petition for a writ of certiorari, that a constitutional viola

tion(s) has occurred

because an unconstitutional taking from the Petitioners,

a taking used for the

public good by the United States government that failed

to justly compensate the

Petitioners, and the statutory rules of the Respondent to

qualify for award violate

the Double Jeopardy and Takings Clauses in the Fifth Amen

dment, alone is worth

responding to.
The additional and outlandish claims Meghan Belaski has

made about being

a conduit of information for multiple national security entiti

es and individuals,

including the FBI et al., going on the better part of 6-7 years
and the United States failing to oppose or respond to the

now, to this very day,

petition by waving their

right to respond suggests they are comfortable allowing Megh

an Belaski's good

name to be defamed with their lack of response because

it suggests she is a liar and

there is nothing to respond to.
If there was nothing to respond to the United States of Amer

ica should have

told this court Meghan Belaski is suffering from delusions,

is possibly suffering

from schizophrenia, should seek professional mental healt

h help and is mentally

unsound in her claims etc., and that the United States of
she's talking about when referencing people like former

America has no idea what

FBI Director James Comey,

former Deputy Attorney General for the U.S. Departmen

t of Justice Rod

5

Rosenstein, and current FBI Director Chris Wray et al., but that didn't happen
because the United States of America knows Meghan Belaski is telling the truth
but has failed to convey the truth to this Court with their silence.
The United States waving their right to respond to the petition suggests
everything Meghan Belaski has said in this Court and the U.S. Court of Appeals for
the DC Circuit is false. The silence of the United States Department of Justice
waving their right to respond to this petition is a defamation of Meghan Belaski's
good character and a violation of 28 U.S. Code §4101.
The silence of the United States waving their right to respond to the petition
has presented Meghan Belaski in a false light, has damaged her reputation, has
caused severe emotional distress and suggests what she has told this Supreme
Court is false and the United States of America should not be allowed to hide
behind a simple sentence waving their right to respond, and in doing so, also
waiving Petitioner's right to due process. Petitioner Belaski respectfully requests
this Court ask the United States to offer a more forthright response to more fully
inform this Court at this time.
This Court should require the Acting Solicitor General and the United States
Department of Justice to fully respond to the petition for the writ of certiorari as
significant and exceptional constitutional questions of national importance have
been raised, and because the United States of America does not get to take Meghan
Belaski's good name and good character and defame it with a simple sentence

6

waiving their right to respond by essentially calling her a liar with their biting
silence.
United States Constitution, Amendment I states: Congress shall make no
law respecting an establishment of religion or prohibiting the free exercise thereof;
or abridging the freedom of speech, or of the press; or the right of the people
peaceably to assemble, and to petition the Government for a redress of grievances.
The failure of the United States to uphold their end of the long-standing
bargain made with Meghan Belaski many years ago, to the point where a "servitude
has been acquired either by agreement or in the course of time", (U.S. v.
Dickinson
331 U.S. 745 (1947)), means that Meghan Belaski's petitioning of her government
for a legitimate and fair redress of her grievances, has been totally upended by the
current position the United States has taken by waiving their right to respond to
the petition for a writ of certiorari. There's nothing fair or legitimate in a redress of
constitutional grievances when the very government you're petitioning opts to
withhold information and knowingly deceive this Court, the Petitioners and the
American people by waving a right to speak the truth through silence.
This isn't a redress of grievances but rather a way to bury and hide those
grievances and clearly not address them in any meaningful manner. Meghan
Belaski has been petitioning her government for years and her government has
failed her. Meghan Belaski has long understood that the right to petition her
government for a redress of grievances, a right granted in the First Amendment of
the U.S. Constitution, means standing up for what's right and just, and fighting
7

against what's not right and unjust, and somehow, someway, having the power to
change injustice with the full force of the United States government backing this
Constitutional right.
Yet, with the United States taking the position that they would rather sit on
the sidelines and waive their right to respond to the petition filed by Meghan
Belaski et al., in this Supreme Court, means the United States is actively blocking
and preventing Meghan Belaski's ability to seek a full and fair redress of her
grievances because the United States has chosen silence over the truth.
United States Constitution, Amendment V states:
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury, except in cases
arising in the land or naval forces, or in the Militia, when in actual service in time
of War or public danger; nor shall any person be subject for the same offense to be
put twice in jeopardy of life or limb; nor shall be compelled in any criminal case to
be a witness against himself, nor be deprived of life, liberty or property, without due
process of law; nor shall private property be taken for public use, without just
compensation.
Because this petition for a writ of certiorari stems from a judgement from
the U.S. Court of Appeals, it should be made clear that ultimately this judgment is
rooted in an administrative decision by the Respondent. At no point have the
Petitioners been able to call witnesses, at no point has the U.S. Department of
Justice said that Petitioner's whistleblower materials were used, at no point has
there been a denial by the U.S. Department of Justice that Petitioners
whistleblower materials and information were used to garnish the largest
settlement in U.S. history for the public good. This is not due process. This is what a
8

lack of due process does; leaves unsettled questions and relevant

facts out of the

process due the Petitioners in this case which is why Petitioners

respectfully

request this Court require a more forthright response from the

United States of

America at this time.
CONCLUSION
Several significant constitutional questions of national importance

have been

raised in the petition for a writ of certiorari and now this suppl

emental brief to this

Court. The fact the United States of America would choose to sit

on its hands and to

continue to remain silent is viewed by Meghan Belaski as nothin

g short of an utter

betrayal to the law and justice in its purest form. This is written
Meghan Belaski's father who died on this very day 2 years ago,

in honor of

who was the

epitome of a just and upright man, and who always taught Megh

an Belaski to fight

like hell for what's right and just and she pleads to this Court to

fight like hell for

what's right and just in this case and to grant the writ of certiorari

and compel the

United States of America to more fully inform this Court of the

truth with a more

compelling and robust statement rather than waving their right

to respond.

June 25, 2021

ttrt

ZS1 2n?/

Respectfully submitted,
Meghan Christine Belaski
P.O. Box 105
Huletts Landing, NY 12841

It

e. •Bdits-te.
9

